wm  COCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@eocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www. cocklelegalbriefs.com

Fax: (402) 342-4850 No. 20-1735

ANGEL MANUEL ORTIZ-DIAZ, ET AL.,
Petitioners,

v.
UNITED STATES OF AMERICA, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that T did, on the 12th day of July, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE COMMONWEALTH OF PUERTO RICO AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above entitled case. All patties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
DOMINGO EMANUELLI-HERNANDEZ CARLOS LUGO-FIOL
Attorney General : Counsel of Record
FERNANDO FIGUEROA-SANTIAGO P.O. Box 260150
Solicitor General San Juan, PR 00926
DEPARTMENT OF JUSTICE (787) 645-4211
COMMONWEALTH OF PUERTO RICO clugofiol@gmail.com
P.O. Box 9020192
San Juan, PR 60902

Subscribed and sworn to before me this 12th day of July, 2021.
am duly authorized under the laws of the State of Nebraska to administer oaths.

    

GENERAL MOTARY-State of Nebraska
RENEE J, GOSS

Loo Ondiawh, Ghle

Affiant

My Comm. Exp. September 6, 2023.

 

 

Notary Public
SERVICE LIST
ORTIZ-DIAZ, et al v. UNITED STATES, et al, No. 20-1735

PETITIONERS

John Michael Connolly
Counsel of Record

Consovoy McCarthy PLLC
1600 Wilson Blvd

Suite 700

Arlington, VA 22209

(703) 243-9423
mike@consovoymecarthy.com

RESPONDENTS

Elizabeth B. Prelogar
Counsel of Record

Acting Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2217
SupremeCtBriefs@USDOJ.gov
